No. 20-7252

In the Supreme Court of the United States
JOHN RAYMOND TRAVIS, Petitioner,
v.
THE PEOPLE OF THE STATE OF CALIFORNIA,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief in
Opposition contains 2,268 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Dated: April 26, 2021
Respectfully submitted,
ROB BONTA
Attorney General of California
S/

ARTHUR P. BEEVER
*ARTHUR P. BEEVER
Deputy Attorney General
*Counsel of Record
*Counsel for Respondent

